<html>
<title> - FIREARM COMMERCE MODERNIZATION ACT, AND THE NICS IMPROVEMENT ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
    FIREARM COMMERCE MODERNIZATION ACT, AND THE NICS IMPROVEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                        H.R. 1384 and H.R. 1415

                               __________

                              MAY 3, 2006

                               __________

                           Serial No. 109-107

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

27-333              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel

                          David Brink, Counsel

                        Caroline Lynch, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel
                            C O N T E N T S

                              ----------                              

                              MAY 3, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

The Honorable Phil Gingrey, M.D., a Representative in Congress 
  from the State of Georgia
  Oral Testimony.................................................     4
  Prepared Statement.............................................     5
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
The Honorable Carolyn McCarthy, a Representative in Congress from 
  the State of New York
  Oral Testimony.................................................     9
  Prepared Statement.............................................    10

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan and 
  Ranking Member, Committee on the Judiciary.....................    25
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    26
Letter from the Brady Center for Gun Violence to the Honorable F. 
  James Sensenbrenner, Jr., Chairman of the Committee on the 
  Judiciary, and the Honorable John Conyers, Jr., Ranking Member, 
  Committee on the Judiciary.....................................    27


    FIREARM COMMERCE MODERNIZATION ACT, AND THE NICS IMPROVEMENT ACT

                              ----------                              


                         WEDNESDAY, MAY 3, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chairman of the Subcommittee) presiding.
    Mr. Coble. Good morning, ladies and gentlemen.
    We're going to--let me set the ground rules for us here. 
Mr. Scott and I have two bills to mark up today. And once we 
get a working quorum, we will attend to that and suspend the 
hearing before us.
    But until that occurs, we welcome each of you, as well as 
our three witnesses, to this hearing to examine the need to 
amend our Nation's gun laws.
    Today, the Subcommittee on Crime, Terrorism, and Homeland 
Security is conducting a legislative hearing on H.R. 1384, the 
``Firearm Commerce Modernization Act,'' and on H.R. 1415, the 
``National Instant Criminal Background Check System''--commonly 
known as NICS--``Improvement Act of 2005.''
    H.R. 1384 would remove restrictions on the interstate sale 
of firearms. H.R. 1415 purports to update existing laws 
governing interstate firearm sales and ensure all States are 
providing complete, accurate, and updated data to the NICS 
system.
    Under current law, federally licensed firearm dealers may 
make rifle or shotgun sales to residents of other States in 
their States so long as the sale complies with the laws of the 
State of the seller and the purchaser.
    Handguns, however, are treated differently. When a handgun 
is purchased in a store, the dealer is required to ship the 
handgun to another federally licensed firearms dealer in the 
purchaser's home State, where the purchaser can subsequently 
pick up the gun.
    This shipping process does not confer any additional 
security review or background verification and extends the 
chain of custody to the mail and another firearms dealer.
    H.R. 1384 would further permit dealers to sell handguns to 
residents of another State so long as the following conditions 
are satisfied. One, the sale conforms with the laws of both 
States. Two, the sale is in person. And three, the purchaser 
must pass a background check.
    As we all know, failure to comply can result in Federal 
criminal charges against the dealer or the purchaser, 
regardless of their intent.
    H.R. 1384 would also permit federally licensed firearm 
dealers to transfer firearms to other federally licensed 
firearm dealers at gun shows. Licensed dealers, many of which--
or many of whom are small businessmen or small business women, 
who have all submitted to thorough and lengthy background 
checks, are currently required to ship firearms from their 
business premises.
    Requiring dealers to ship firearms rather than transfer 
possession in person confers no additional Federal tracking or 
registration requirements, nor does it add any additional 
security or background review.
    Finally, H.R. 1415 provides funds and incentive for States 
to update and automate records provided to NICS, particularly 
records regarding criminal dispositions, mental illness 
determinations, restraining orders, and domestic violence 
misdemeanor convictions.
    NICS is operated by the Federal Bureau of Investigation and 
is used to conduct background checks of firearms purchasers 
before they are permitted to buy a firearm. When an individual 
enters a gun dealership to purchase a firearm, the dealer must 
perform a background check which utilizes the NICS call center, 
a state-of-the-art computer facility, located in Clarksburg, 
West Virginia.
    I look forward to learning more about these bills and thank 
our witnesses for participating in today's hearing. And I am 
now pleased to recognize the distinguished gentleman and my 
friend from Virginia, the Ranking Member, Mr. Bobby Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    And I'm pleased to join you in convening the hearing on 
H.R. 1384 and 1415. While I fully support 1415, which provides 
funds and incentives to States to more fully and efficiently 
update their criminal records, I have concerns about H.R. 1384.
    The purpose of the restrictions that 1384 will remove is to 
limit opportunities for getting guns in the hands of prohibited 
people through straw purchases or other ways due to an 
overwhelmed system.
    Although I support 1415, the need for the bill clearly 
tells us that the guns are currently being distributed to 
people who would not get them if criminal and other 
disqualifying records were more current and complete, which is 
the aspiration of the bill.
    Given this reality, we should not be making the job of 
preventing handguns from getting in the hands of the wrong 
person more difficult before we fix the data system on which we 
rely so heavily to stop such transactions.
    Moreover, I'm concerned that this legislation would make it 
impossible for States like Virginia to have any meaningful 
enforcement of its ``one gun a month'' laws, either on its 
citizens or others. Right now, out-of-State address 
documentation effectively prevents anyone from leaving or 
coming into Virginia and avoiding the impact of its ``one gun a 
month limitation.''
    With this bill, it would not be feasible to police the 
requirement, especially at gun shows on weekends, and it's 
unlikely that people in other States would even be familiar 
with Virginia's ``one gun a month law.''
    So, Mr. Chairman, I'll listen to the testimony of our 
witnesses carefully to see how 1384 addresses my concerns, and 
I look forward to working with you to make sure we continue to 
make it difficult for guns to get in the hands of the wrong 
people, particularly handguns, while not unduly restricting the 
right of law-abiding and otherwise eligible persons to own 
firearms.
    And I also want to welcome--join you in welcoming our 
colleagues who will be testifying today.
    Mr. Coble. I thank you, Mr. Scott.
    The lady and gentlemen, as you all know, it's the practice 
of the Subcommittee to swear in all witnesses. So if you all 
would please stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Coble. You may be seated. Let the record show that the 
witnesses answered in the affirmative.
    We have three distinguished witnesses with us today and 
strike that--any other opening statements from the other 
Members of the Subcommittee will be submitted for the record 
without objection.
    [The statements follow in the Appendix]
    Mr. Coble. And we've been joined by the gentleman from 
Wisconsin, Mr. Green. Good to have you with us, Mark.
    We have three distinguished witnesses with us today. Our 
first witness is the Honorable Phil Gingrey, M.D., from the 
11th Congressional District in Georgia, who was elected to the 
Congress in 2002.
    Representative Gingrey currently serves on the House Rules 
Committee. In his first term of Congress, he served on the 
Armed Services Committee, the Committee on Education and the 
Workforce, and the Science Committee.
    Prior to his decision to run for Congress, Representative 
Gingrey spent 26 years as a medical practitioner and delivered 
over 5,200 babies. He is a graduate of the Medical College of 
Georgia and Georgia Tech.
    Our second witness is the Honorable Steve King. 
Representative King represents or serves Iowa's 5th 
Congressional District and is in his second term.
    Representative King started his own business, the King 
Construction Company, in 1975 and served in the Iowa State 
Senate for 6 years prior to coming to the Congress. He 
currently sits on the Judiciary Committee, the Small Business 
Committee, and the Agriculture Committee.
    Representative King studied math and science at the 
Northwest Missouri State University. In what town is Northwest 
Missouri, Steve?
    Mr. King. Maryville, Missouri.
    Mr. Coble. Where?
    Mr. King. Maryville, Missouri.
    Mr. Coble. Thank you, sir.
    And our third witness is the Honorable Carolyn McCarthy. 
Mrs. McCarthy serves New York's 4th Congressional District and 
is currently in her fifth term in the Congress. During her 
nearly 10 years in the Congress, Representative McCarthy has 
diligently fought against gun violence, the tragic effects of 
which she felt with the murder of her husband in 1993.
    Representative McCarthy served on the Education and the 
Workforce Committee and the Financial Services Committee. And I 
think for about 3 decades, Mrs. McCarthy, you worked as a 
nurse. So you and Representative Gingrey, if anyone has any 
medical problems, we are able to satisfy those needs this 
morning.
    Now, folks, as you all know, we operate under the 5-minute 
rule here, and Mr. Scott and I apply that rule to ourselves as 
well. So when you see that amber light up here in front of you, 
you'll know that the ice on which you're skating is getting 
thin. And the red light, of course, indicates that 5 minutes 
have elapsed.
    Representative Gingrey, why don't we start with you?

THE HONORABLE PHIL GINGREY, M.D., A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Dr. Gingrey. Thank you, Mr. Chairman and Members of the 
Subcommittee.
    I do thank you for the opportunity to testify today in 
support of my bill, H.R. 1384, the ``Firearms Commerce 
Modernization Act.''
    I introduced this legislation after I learned about some of 
the severe and, quite frankly, obsolete restrictions that 
Federal law imposes on businesses and individuals who want to 
sell firearms legally through our Nation's interstate economy.
    In general, since 1968, it has been illegal for any person 
without a Federal firearms license to buy or sell handguns 
across State lines. Licensed dealers cannot sell firearms, 
except certain collectibles, at a gun show outside of their own 
State.
    Even between dealers, who go through a thorough background 
check to get a dealer's license, the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives does not allow face-to-face 
transfers. So dealers who agree on a sale must go back to their 
stores and ship the firearm.
    Gun theft is a major source of the firearms used in crime, 
and it is senseless under current law to make a licensed dealer 
ship a firearm when they can make a legal and documented 
transaction at the time of purchase.
    My bill would do three simple things, Mr. Chairman. 
Firstly, it would make it legal for a licensed dealer to sell a 
handgun to a resident of another State as long as they do the 
sale in person, and they obey the laws of both States as well 
as Federal law.
    And secondly, it would allow dealers to do business at out-
of-State gun shows. Again, they would have to obey the laws of 
the State they were visiting--this addresses Ranking Member 
Scott's concerns--as well as all the Federal laws and 
regulations they normally obey.
    It would allow, thirdly, dealers to transfer firearms 
directly to one another, instead of risking theft or loss 
during shipment.
    The reason we can make these changes today is really quite 
simple. It's based on technology. These restrictions were 
imposed in 1968, when the only way for a dealer to conduct a 
background check on an out-of-State buyer was by sending a 
certified letter to the police in the buyer's home State, 
waiting for a reply, and then waiting a week before making the 
sale. That was 1968 technology.
    But today, dealers can request background checks with a 
phone call or online by either contacting the FBI directly or 
by contacting a State police agency that uses the FBI's 
database. They get an answer in seconds and with an exceptional 
degree of accuracy.
    This routine applies one way or another to every gun sold 
by every dealer in every State. And we're going to improve this 
database with Representative McCarthy's bill.
    Just to show you how far the technology has come, any 
teenager can go online today and order a $500 laptop computer 
that carries more computing power than NASA carried on the 
first space shuttle 25 years ago. It costs less, and the 
teenager does not have to be a rocket scientist--no pun 
intended--to use it.
    And if you bought a new cell phone in the last year, you're 
probably carrying more memory, programmability, and computing 
power in your pocket than AT&T had in all its long distance 
systems in the late 1960's.
    So, with all of these advances, there is every reason to 
allow law-abiding individuals to buy handguns in other States, 
just as we currently allow for long guns. The key point is that 
anyone purchasing a firearm would, by Federal law, still have 
to go through the background check, and they would still have 
to obey the laws of their home State as well as the State where 
the sale takes place, including Virginia.
    And that last point is very important because I know there 
are some arguments that this legislation bypasses strict or 
very strict certain State laws. And those arguments are just 
not true.
    If you are from California or Massachusetts or New York, 
you would still have to obey your own State laws before you 
could buy a handgun at home or anywhere else. That would 
include licenses, waiting periods, bans on certain kinds of 
guns, or any other restrictions. And if a dealer is not 
confident he can comply with those laws, no one can force him 
or her to make the sale.
    Mr. Chairman, I believe H.R. 1384 is a reasonable piece of 
legislation that helps get rid of some restrictions that we 
just do not need anymore and, frankly, can be downright 
dangerous. And I appreciate your time and effort in considering 
this legislation.
    I thank you and the Members of the Subcommittee, and I 
would be happy at the appropriate time to take your questions.
    [The prepared statement of Dr. Gingrey follows:]
 Prepared Statement of the Honorable Phil Gingrey, a Representative in 
                   Congress from the State of Georgia
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify today in support of my bill, H.R. 1384, the 
Firearms Commerce Modernization Act.
    I introduced this legislation after I learned about some of the 
severe, and frankly obsolete, restrictions that federal law imposes on 
businesses and individuals who want to sell firearms legally through 
our nation's interstate economy.
    In general, since 1968, it has been illegal for any person without 
a federal firearms license to buy or sell handguns across state lines. 
Licensed dealers cannot sell firearms (except for certain collectibles) 
at a gun show outside their own state. Even between dealers, who go 
through a thorough background check to get a dealer's license, the 
Bureau of Alcohol, Tobacco, Firearms and Explosives does not allow 
face-to-face transfers, so dealers who agree on a sale must go back to 
their stores and ship the firearm. Gun theft is a major source of the 
firearms used in crime and it is senseless under current law to make a 
licensed dealer ship a firearm when they can make a legal and 
documented transaction at the time of purchase.
    My bill would do three simple things:

        1.  It would make it legal for a licensed dealer to sell a 
        handgun to a resident of another state, as long as they do the 
        sale in person and obey the laws of both states, as well as 
        federal law.

        2.  It would allow dealers to do business at out-of-state gun 
        shows. Again, they would have to obey the laws of the state 
        they were visiting, as well as all the federal laws and 
        regulations they normally obey.

        3.  It would allow dealers to transfer firearms directly to one 
        another, instead of risking theft or loss during shipment.

    The reason we can make these changes today is quite simple: 
technology. These restrictions were imposed in 1968, when the only way 
for a dealer to conduct a background check on an out of state buyer was 
by sending a certified letter to the police in the buyer's home state, 
waiting for a reply, and then waiting a week before making the sale.
    Today, dealers can request background checks with a phone call or 
online by either contacting the FBI directly or by contacting a state 
police agency that uses the FBI's databases. They get an answer in 
seconds, and with an exceptional degree of accuracy. This routine 
applies one way or another to every gun sold, by every dealer, in every 
state.
    Just to show you how far the technology has come, any teenager can 
go online today and order a $500 laptop computer that carries more 
computing power than NASA carried on the first space shuttle 25 years 
ago. It costs less, and the teenager does not have to be a rocket 
scientist to use it. And, if you bought a new cell phone in the last 
year, you are probably carrying more memory, programmability and 
computing power in your pocket than AT&T had in all its long-distance 
systems in the 1960s.
    With all these advances, there is every reason to allow law-abiding 
individuals to buy handguns in other states, just as we currently allow 
for long guns. The key point is that anyone purchasing a firearm would 
by federal law still have to go through the background check and they 
would still have to obey the laws of their home state, as well as the 
state where the sale takes place.
    That last point is important, because I know there are some 
arguments that this legislation bypasses strict state laws. Those 
arguments are just not true. If you are from California, or 
Massachusetts, or New York, you would still have to obey your own 
state's laws before you could buy a handgun at home or anywhere else. 
That could include licenses, waiting periods, bans on certain kinds of 
guns, or other restrictions. And if a dealer is not confident he can 
comply with those laws, no one can force him to make the sale.
    Mr. Chairman, I believe H.R. 1384 is a reasonable piece of 
legislation that helps get rid of some restrictions that we just do not 
need any more. I appreciate your time and effort in considering this 
legislation. Thank you.

    Mr. Coble. Thank you, Representative Gingrey.
    Representative King.

  TESTIMONY OF THE HONORABLE STEVE KING, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman and Ranking Member Scott 
and Members of the Subcommittee. Thanks for the opportunity to 
testify on the Firearms Commerce Modernization Act.
    The key focus of this bill is to remove unnecessary Federal 
regulations on interstate firearms transactions. Some of those 
restrictions have outlived their usefulness, based on today's 
background technology. Other restrictions are based on legal 
interpretations by the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives. These restrictions may actually create a 
greater risk of guns falling into the wrong hands.
    H.R. 1384 would remove restrictions on the interstate sale 
of firearms as long as the sales otherwise comply with Federal 
law and the laws of the buyer's and seller's States. This would 
include the Federal background check requirement as well as a 
host of State restrictions.
    I'd like to discuss why this bill is especially relevant to 
my district and many other rural areas in this country. I 
represent a large area in western Iowa, and it happens to 
border on four other States.
    We don't have a lot of big cities in my district. In fact, 
we don't have a single big city in my district. What we do have 
are a lot of rural residents who live in Iowa, but they do a 
lot of their shopping and other personal business in another 
State.
    Many of the residents of my district also own firearms. And 
in this case, the Federal restrictions on interstate firearms 
transactions really create a burden for my constituents and 
those in the surrounding States.
    Unfortunately, it's quite possible that one of my law-
abiding constituents might not be able to find a gun he wants 
locally, but might find it for sale in, say, Sioux Falls or 
Omaha or maybe Kansas City. In fact, we allow exactly this type 
of sale now, but only for rifles and shotguns.
    All H.R. 1384 would do is extend that to handguns. And 
again, we're only talking about law-abiding people. All of the 
sales would be subject to Federal and State law and would only 
be carried out after a background check on the buyer.
    On that point, I'd like to point out just how limited H.R. 
1384 is, and my State's a good example. Both Iowa and all the 
States surrounding it have restrictions on handgun sales above 
and beyond the requirements of Federal law. Under H.R. 1384, we 
wouldn't do away with any State laws. An out-of-State handgun 
buyer would have to obey the laws of both States.
    For example, Iowa requires a handgun buyer to get a permit 
to purchase before buying a handgun. And Wisconsin has a 48-
hour waiting period on handgun sales. If one of my constituents 
went to Wisconsin and wanted to buy a handgun, he would still 
have to have the Iowa permit, but also have to wait 48 hours 
before taking delivery of the gun. And that would be to comply 
with the Wisconsin law.
    Some State laws are so restrictive or so complicated that 
it would be difficult or impossible to comply with two sets of 
laws. For example, I don't think anyone would have to worry 
about interstate sales between, say, Massachusetts and New 
Jersey, and H.R. 1384 doesn't try to change that.
    1384 simply removes certain Federal restrictions that were 
supposed to help States enforce their internal laws in the days 
before we had computerized background checks to help prevent 
gun sales to criminals.
    The other provisions of H.R. 1384, which involve dealers' 
ability to exhibit in out-of-State gun shows and to conduct 
face-to-face firearm transactions with dealers from other 
States, are just as relevant to districts like mine. These 
provisions would allow federally licensed dealers to do 
business with each other and with the public, but they would 
still have to obey all the applicable Federal laws as well as 
the laws of the State where they happen to be doing business.
    So, again, if a licensed dealer from Red Oak, Iowa, and 
another licensed dealer from Wahoo, Nebraska, want to make a 
trade at a gun show in Omaha, Nebraska, they could do that. 
They just have to cross all their T's and dot all their I's 
under Federal law and Nebraska law. Then they would no longer 
be forced to go back to their stores and mail a gun, which 
might be lost or stolen in transit.
    The fact that they have to do that now--based on the 
Government's interpretation of the law--is a ridiculous policy, 
which, frankly, endangers public safety.
    Mr. Chairman, thank you for the privilege to testify before 
this Committee, and I'd be happy to answer any questions.
    [The prepared statement of Mr. King follows:]
  Prepared Statement of the Honorable Steve King, a Representative in 
                    Congress from the State of Iowa
    Mr. Chairman, members of the subcommittee, thank you very much for 
allowing me to testify on H.R. 1384, the ``Firearm Commerce 
Modernization Act.''
    The key focus of this bill is to remove Federal restrictions on 
interstate firearms transactions. Some of those restrictions have 
outlived their usefulness, based on today's background check 
technology. Other restrictions are based on legal interpretations by 
the Bureau of Alcohol, Tobacco, Firearms, and Explosives; these 
restrictions may actually create a greater risk of guns falling into 
the wrong hands.
    H.R. 1384 would remove restrictions on the interstate sale of 
firearms, as long as the sales otherwise comply with federal law and 
the laws of the buyers' and sellers' states. This would include the 
federal background check requirement, as well as a host of state 
restrictions.
    I'd like to discuss why this bill is especially relevant to my 
district and many other rural areas in the country. I represent a large 
area in western Iowa, which happens to border on four other states. We 
don't have a lot of big cities in my district; in fact, we don't have 
any big cities in my district. What we do have are a lot of rural 
residents who live in Iowa, but do a lot of their shopping and other 
personal business in another state.
    Many of the residents of my district also own firearms, and in this 
case the federal restrictions on interstate firearms transactions 
really create a burden for my constituents and those in the surrounding 
states. Unfortunately, it's quite possible that one of my law-abiding 
constituents might not be able to find a gun he wants locally, but 
might find it for sale in Sioux Falls or Omaha or Kansas City.
    In fact, we allow exactly this type of sale now, but only for 
rifles and shotguns. All H.R. 1384 would do is extend that to handguns. 
And again, we are only talking about law-abiding people, and all the 
sales would be subject to federal and state law and would only be 
carried out after a background check on the buyer.
    On that point, I'd like point out just how limited H.R. 1384 is, 
and my state is a good example to do that. Both Iowa and all the states 
surrounding it have restrictions on handgun sales above and beyond the 
requirements of Federal law. Under H.R. 1384, we wouldn't do away with 
any state laws. An out-of-state handgun buyer would have to obey the 
laws of both states.
    For example, Iowa requires a handgun buyer to get a ``permit to 
purchase'' before buying a handgun, and Wisconsin has a 48-hour waiting 
period on handgun sales. If one of my constituents went to Wisconsin 
(an expensive trip at today's gas prices) and wanted to buy a handgun, 
she would have still have to have the Iowa permit, but would also have 
to wait 48 hours before taking delivery of the gun.
    Some state laws are so restrictive or so complicated that it would 
be difficult or impossible to comply with two sets of laws. For 
example, I don't think anyone would have to worry about interstate 
sales between Massachusetts and New Jersey, and H.R. 1384 doesn't try 
to change that. H.R. 1384 simply removes certain federal restrictions 
that were supposed to help states enforce their internal laws in the 
days before we had computerized background checks to help prevent gun 
sales to criminals.
    The other provisions of H.R. 1384 (which involve dealers' ability 
to exhibit at out of state gun shows, and to conduct face-to-face 
firearms transactions with dealers from other states) are just as 
relevant to districts like mine.
    These provisions would allow federally licensed dealers to do 
business with each other and with the public, but they would still have 
to obey all the applicable federal laws, as well as the laws of the 
state where they happened to be doing business. So again, if a licensed 
dealer from Red Oak, Iowa and another licensed dealer from Wahoo, 
Nebraska want to make a trade at a gun show in Omaha, they could do 
that--they'd just have to cross all their Ts and dot all their Is under 
federal law and Nebraska law. They would no longer be forced to go back 
to their stores and mail a gun, which might be lost or stolen in 
transit. The fact that they have to do that now--based on the 
government's interpretation of the law--is a ridiculous policy, which 
frankly endangers public safety.
    Mr. Chairman, thank you for your time, and I appreciate the 
opportunity to testify.

    Mr. Coble. I thank you, Mr. King.
    Mrs. McCarthy, you're recognized.

 TESTIMONY OF THE HONORABLE CAROLYN McCARTHY, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mrs. McCarthy. Thank you, Mr. Chairman, for affording me 
the opportunity to speak here today, and I'd also like to thank 
Ranking Member Scott for having me here as well. And I'd like 
to thank the Members of the Committee for also being here.
    Mr. Chairman, I'd like permission to enter my entire 
statement into the record.
    Mr. Coble. Without objection.
    Mrs. McCarthy. Today, I'd like to--thank you.
    Today, I'd like to talk to you about H.R. 1415, the NICS 
Improvement Act. This is a bill that would increase the 
effectiveness of the existing National Instant Criminal 
Background Check System, the database used to check potential 
firearm buyers for any criminal record or any other 
disqualifying criteria.
    Overall, NICS has been a success. Since 1994, more than 1.2 
million individuals have been denied a gun because of a failed 
background check. NICS also provides the vast majority of 
honest gun sellers with peace of mind in knowing that they are 
selling their products to citizens who will use them safely and 
legally.
    However, the NICS system is only as good as the information 
States provide. And unfortunately, many States don't have the 
resources necessary to enter all of this disqualifying criteria 
into the NICS system.
    The end result is that felons and others who are not 
permitted by existing law to buy guns are passing background 
checks, buying guns through legitimate means. In fact, 28 
States have automated less than 75 percent of their criminal 
history records. In 15 States, domestic violence restraining 
orders, which is a disqualifying offense, are not accessible 
through NICS.
    These and other loopholes have cost countless people their 
lives, including two of my constituents. On March 8, 2002, 
Peter Troy purchased a .22 caliber semi-automatic rifle from a 
legitimate gun dealer in New York. He had a history of mental 
health problems, and his own mother had a restraining order 
against him as a result of his violent background. Yet his NICS 
background check turned up no red flags.
    It was illegal for him to purchase a gun. But like so many 
others, he simply slipped through the cracks in the NICS system 
because of lack of information.
    Four days later, Peter Troy walked into Our Lady of Peace 
Church in Lynbrook, New York, opened fire, and killed Reverend 
Lawrence Penzes, and a parishioner, Eileen Tosner. Peter Troy 
had no business being able to buy a gun, and the system created 
to prevent him from doing so simply failed.
    It is only a matter of time before the system's failings 
provoke larger tragedies. We must improve the NICS and allow it 
to do what it was designed to do.
    The responsibility for the accuracy and the effectiveness 
of the NICS system ultimately belongs to the States. However, 
many States' budgets are already overburdened.
    This legislation would provide grants to States to update 
the NICS systems. States would be able to update their NICS 
database to include felons, domestic abusers, and others not 
legally qualified to buy a gun.
    The bill's goal is to have had all 50 States enter at least 
90 percent of this disqualifying information into NICS. States 
that don't comply or fall short of these goals will be 
penalized with a 5 percent reduction of their Federal 
Department of Justice grant allotments.
    Also, the bill would provide grants for State courts to 
promptly enter information into the NICS system. For example, 
when someone is served with a restraining order stemming from 
domestic violence, an inefficient NICS system would allow him 
or her to leave the courthouse and head right to the gun store. 
My bill would make sure all preventive court records are 
entered into the NICS before a crime of passion can be 
committed.
    It is important to keep in mind that this bill does nothing 
to infringe on anybody's second amendment rights, which I 
support. It creates no new gun laws. It simply gives States the 
resources to better enforce the current law.
    If H.R. 1415 became law, law-abiding citizens who want to 
buy a gun legally will not experience any delay at the point of 
purchase, and this bill poses no burden on gun sellers. In 
fact, I introduced this bill in 2002 with my friend and 
colleague Mr. Dingell of Michigan, who is well known for his 
strong support of gun rights.
    In 2002, this legislation passed the House by voice vote. 
Unfortunately, the other body didn't have the time to take up 
this legislation before the 107th Congress came to an end. The 
measure had the support of Senators Hatch and Craig, another 
two long-time supporters of gun rights.
    In closing, I believe this is common sense legislation that 
will keep guns out of the hands of criminals and others who the 
law prohibits from having firearms. And with it, again, it does 
nothing to infringe on second amendment rights of law-abiding 
Americans. I'm happy to work with the Committee to improve this 
bill so that it better enforces our existing law.
    Thank you for the time, and I'll be happy to answer any 
questions you may have.
    [The prepared statement of Mrs. McCarthy follows:]
Prepared Statement of the Honorable Carolyn McCarthy, a Representative 
                 in Congress from the State of New York
    Thank you, Mr. Chairman for affording me the opportunity to speak 
today. I'd also like to thank Ranking Member Scott. I ask that my 
complete statement be included in the record.
    Today, I'd like to talk to you about H.R. 1415, the NICS 
Improvement Act.
    This bill would increase the effectiveness of the existing National 
Instant Criminal Background Check System (NICS), the database used to 
check potential firearms buyers for any criminal record or history of 
mental illness.
    Overall, NICS has been a success. Since 1994 more than 1.2 million 
individuals have been denied a gun because of a failed background 
check. At the same time, 98 percent of purchases were cleared.
    NICS also provides the vast majority of honest gun dealers peace of 
mind in knowing they are selling their products to citizens who will 
use them safely and legally.
    However, the NICS system is only as good as the information states 
provide to it. And unfortunately, many states don't have the resources 
necessary to enter all of their disqualifying criteria into the NICS 
system.
    The end result is that felons and others who are not permitted by 
existing law to buy guns are passing background checks buying guns 
through legitimate means.
    In fact, twenty-eight states have automated less than seventy-five 
per cent of their criminal history records.
    In fifteen states, domestic violence restraining orders, which are 
a disqualifying offense, are not accessible through NICS, because those 
records are incomplete or not fully automated.
    Thirty-seven states do not enter the records of those mentally 
adjudicated into the NICS database for a number of reasons.
    These loopholes have cost countless people their lives, including 
two of my constituents.
    On March 8, 2002, Peter Troy purchased a .22 caliber semi-automatic 
rifle from a legitimate gun dealer in New York. He had a history of 
mental health problems and his own mother had a restraining order 
against him as the result of his violent background.
    Yet his NICS background check turned up no red flags.
    It was illegal for him to purchase a gun; but, like so many others, 
he simply slipped through the cracks in the NICS system because of a 
lack of information.
    Four days later, Peter Troy walked into the Our Lady of Peace 
Church in Lynbrook, New York, opened fire, and killed Rev. Lawrence 
Penzes and a parishioner, Eileen Tosner.
    Peter Troy had no business buying a gun, and the system created to 
prevent him from doing so simply failed.
    It is only a matter of time before the system's failings lead to 
larger tragedies.
    We must fix the NICS system and allow it do what it was designed to 
do.
    The responsibility for the accuracy and effectiveness of the NICS 
system ultimately belongs to the states; however, many state budgets 
are already overburdened.
    This legislation would provide grants to states to update the NICS 
system. It includes $250 million for each of the next three years for 
state law enforcement and $125 million for each of those three years 
for state court systems. States would have the resources to update 
their NICS databases to include felons, people that have been 
adjudicated with certain mental and emotional disabilities, and 
domestic abusers.
    The bill's goal is to have had all 50 states enter at least 90% of 
their disqualifying information into NICS. States that don't comply or 
fall short of these goals will be penalized with a 5% reduction of 
certain Department of Justice grant allocations.
    It is important to keep in mind that this bill does not infringe on 
anybody's 2nd Amendment Rights, which I support. It simply enforces 
current law.
    If H.R. 1415 becomes law, law-abiding citizens who want to buy a 
gun legally will not experience any delay at the point of purchase.
    And this bill poses no new burden on gun sellers.
    In fact, I first introduced this bill in 2002 with my friend and 
colleague, Mr. Dingell of Michigan, who is well known for his strong 
support of gun rights and the 2nd Amendment.
    In 2002, the House passed this legislation by voice vote. 
Unfortunately, the other body didn't have the time to take up this 
legislation before the 107th Congress came to an end. The measure had 
the support of Senators Hatch and Craig, another two longtime 
supporters of gun rights.
    Mr. Chairman, as you know, the Brady check under the NICS System 
consists of two-steps.
    First, the NICS Call Center representative or NICS E-Check system 
runs a computer search of several databases to see if the purchaser has 
a record that prohibits him or her from possessing a firearm under 18 
U.S.C. Section 922(g). Specifically, the NICS computer search includes 
a search of the:

        <bullet>  Interstate Identification Index (III)--a computerized 
        system that contains records from participating states and the 
        FBI's criminal history databases;

        <bullet>  National Crime Information Center 2002 (NCIC)--a 
        system that stores data provided by state and local law 
        enforcement, including information on wanted persons, missing 
        persons, stolen property, protection orders, etc; and

        <bullet>  NICS Index File--a compilation of databases ranging 
        from the DHS/INS files on immigration status to a miscellaneous 
        file, which States can used to inform NICS that a person is in 
        a prohibited category or cannot purchase a firearm under state 
        law.

    In the end, this initial computer search seeks to determine whether 
or not the purchaser falls within one of the nine categories 
prohibiting a person from purchasing a firearm under 18 U.S.C. Section 
922(g).
    The Brady check is complete at this stage if the initial computer 
search indicates the purchaser has no record (``Proceed'') or a record 
indicates the purchaser is prohibited from purchasing a firearm 
(``Denied''). The NICS System immediately notifies gun dealers if one 
of these determinations is reached. The vast majority of Brady checks 
fall into this category and are completed in a matter of minutes, if 
not seconds.
    Second, if the initial computer search cannot reach a final 
determination, the call is passed on to a NICS representative to 
conduct a human search for missing information that will allow NICS to 
reach a determination. The NICS System typically cannot reach a 
determination because information it should receive from the states is 
not available. A classic example is when III or NCIC indicates that a 
purchaser was arrested in a state, but the state has not entered the 
disposition of the case into III or NCIC. In short, the NICS System 
cannot determine whether the purchaser was convicted or acquitted and 
cannot make a final determination. In this situation, the NICS 
representative literally must attempt to get missing information to 
make a NICS determination by calling state and local courthouses, 
judges, clerks or law enforcement to get information.
    If the NICS System cannot give a response to the gun dealer within 
three business days, the dealer has permission to sell or transfer the 
firearm to the purchaser under the Brady law. However, the NICS System 
will continue to attempt to reach a final determination for a brief 
period of time. If after three days it discovers the purchaser was 
ineligible to purchaser a firearm, the FBI NICS System notifies ATF and 
agents will seek to recover the firearm from the unauthorized 
purchaser.
    I want to reiterate that the system works best when it has all 
relevant information. Legal sales are approved promptly, and federal 
agents do not have to waste time tracking down unauthorized weapons.
    Mr. Chairman, I now want to remind you of several reports from the 
Department of Justice on the NICS process and on the data used by NICS 
to conduct background checks.
    In August 2004, the Office of Justice Programs, Bureau of Justice 
Statistics (BJS), published Survey of State Records Included in Presale 
Background Checks: Mental Health Records, Domestic Violence Misdemeanor 
Records, and Restraining Orders, 2003 (NCJ 206042). BJS conducted a 
survey to examine the quality and availability of State records for 
these categories of people who are barred under current law from 
possessing a gun. Once you review this report, you will understand why 
each state needs a central repository for criminal and court records of 
those persons who are not legally entitled to a gun. The present 
records system in many states is incomplete and fragmented.
    Criminal history disposition is a key component of a total NICS 
system. In January 2005, the FBI's Criminal Justice Information 
Services Division issued its ``NICS Operations Report 2003-2004.'' It 
notes that ``[f]inal disposition information is vital to the NICS 
because it is required in order to determine the eligibility of 
potential firearm purchasers.''
    The final disposition of arrests is crucial to the accuracy of a 
NICS background check. I am not talking about only felony arrests. The 
law denies a gun to a person convicted of a domestic violence 
misdemeanor offense. Accurate records in NICS keep guns out of the 
hands of abusive people. All it takes is one incomplete record, and 
tragedy ensues.
    The FBI's comments were reinforced by the BJS report Improving 
Access to and Integrity of Criminal History Records (July 2005, NCJ 
200581). This report notes that in a 2001 survey ``[s]ix states 
reported that 90% or more of their arrests had corresponding final 
dispositions.'' It also noted that ``[i]n nine States less than half of 
the arrests had final dispositions recorded in the databases.''
    In many states, no single agency is responsible for providing 
information on final disposition. In one state, it may be the arresting 
agency. In another, the prosecutor. In a third, the court. We need 
timely and accurate information on the disposition of cases so that 
barred people do not walk out of court and into a gun shop. We need 
coordination and cooperation between state courts and state law 
enforcement. Otherwise, we cannot enforce existing law.
    I was pleased to see that the July 2005 BJS report included five 
recommended action items. These recommendations included (1) obtaining 
full participation of the States in the FBI's Interstate Identification 
Index (III); and (2) improving State contributions to the FBI's 
national databases of prohibited purchasers. The NICS Improvement Act 
would help implement those recommendations.
    Mr. Chairman, I would never claim to have all the answers to 
improving the background check process. I welcome the suggestions and 
comments of the members of this committee, the administration, and 
other parties interested in keeping guns out of the hands of criminals.
    I have three goals that I hope to achieve with H.R. 1415. First, 
strengthen the enforcement of existing law. Second, help the states 
compile and provide the data that will enforce existing law. Third, get 
as much of that data into NICS as quickly as possible.
    I want to work with you and others to achieve these goals.
    The background records system is much better than it was 12 years 
ago. However, much more needs to be done before all relevant records 
are provided to NICS.
    In closing, I believe that H.R. 1415 is common sense legislation 
that will keep guns out of the hands of criminals and others who the 
law prohibits from having firearms.
    And it does this without infringing on the 2nd Amendment rights of 
law-abiding Americans.
    Thank you for time, and I'd be happy to answer any questions you 
may have.

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Mrs. McCarthy.
    If you all will suspend just a moment and let me confer 
with Mr. Scott?
    [Pause.]
    Mr. Coble. Thank you. We appreciate the witnesses' comments 
here. I would like to know, just as a matter of interest, if 
either of you three know----
    Strike that. We will revert to the suspension. So if you 
all will rest easy for the moment, and we will bring up two 
bills to mark up.
    [Recess.]
    Mr. Coble. And I thank the witnesses for your patience.
    Now we will examine you all, and we will start the 5-minute 
barometer on us.
    Let me ask each of you three, just as a matter of interest, 
has the Justice Department expressed an opinion to your bills 
to either of you?
    Dr. Gingrey. Mr. Chairman, on 1384, to my knowledge, they 
have not.
    Mr. Coble. Mr. King?
    Mr. King. And I have to defer to Mr. Gingrey's response to 
that.
    Mr. Coble. Mrs. McCarthy?
    Mrs. McCarthy. I wouldn't say they have responded to this 
particular bill. But in August of 2005, they did come out with 
a report basically saying the shortcomings of the States of not 
reporting the information that they needed to do a complete 
check.
    Mr. Coble. So at least by implication, lending support, I 
would assume?
    Mrs. McCarthy. Yes.
    Mr. Coble. Mr. Gingrey, you're the original sponsor of the 
bill before us. How would this bill build upon or reinforce 
existing gun laws?
    Dr. Gingrey. Well, Mr. Chairman, the title of the bill, I 
think, really says it all--the Firearms Commerce Modernization 
Act. And it would, in its simplest description of that--
simplest answer, would be the law--the current law that's 
applicable to long guns would also be applicable to handguns. 
And that's, in essence, what this does.
    And as we pointed out, of course, back in the Gun Control 
Act of 1968, there was a lot of concerns about States' rights, 
and States had their databanks and information on--on who could 
or should not be allowed to buy a handgun or even a long gun, 
for that matter.
    But as I pointed out in my opening testimony, Mr. Chairman, 
we've come a long way since 1968. And I gave those examples of 
the purchasing of a computer with more memory than NASA had 
back in those days when they were trying to put a man on the 
Moon.
    And this is just simply what it is. It's modernizing the 
Firearms Commerce Act.
    Mr. Coble. Thank you, sir.
    Mrs. McCarthy, I'll be a little more detailed as opposed to 
my first question. Has the Justice Department documented any 
problems collecting and updating background information from 
States, A? And B, do you know how much Federal funding is 
provided to States to collect background information?
    Mrs. McCarthy. Answering to your first question, we have 
found that because a number of States--let's take the issue of 
mental illness. A lot of States, because of the privacy laws, 
don't want to put that information into the NICS system, which 
is really a shame. Because basically, when you look at the NICS 
system and, say, someone is going to buy a gun, what it pops up 
is either denied or, you know, go forward.
    So no matter what the law--you know, 1968 Gun Control Act 
has 9 provisions on those that shouldn't be able to buy guns. 
With that being said, no one knows why someone is being denied. 
So privacy is in there.
    Also in my legislation, the attorney general will have the 
right and the Department of Justice will have the flexibility 
to work with the States to make sure all privacy is protected.
    As far as the amount of money that has been allotted in 
past years to bring the NICS system up, I believe it was like 
$300 million. But again, that was from the beginning, and it 
has done a fairly good job.
    But up to even going past 10 years, a lot of the names 
because of States not having the equipment, especially the 
equipment that we're talking about that has become so more 
advanced--like the courts. The majority of courts do not have 
computers to be able to put the information that they need 
right then and there into the system, where it would 
automatically go.
    I actually think this will end up saving money also. 
Because when someone is denied the use of--or the permit of 
being able to buy a gun, it has to go back down to the FBI. 
They have to do a visual search. So that's manpower that's 
being used.
    So I think, in the end, this can actually, number one, save 
lives.
    Mr. Coble. Thank you.
    Mr. King, you heard Mr. Gingrey's response to my question. 
Do you want to extend that or weigh upon it?
    Mr. King. I endorse the response given by Mr. Gingrey, and 
I just think that when we're--as this society moves forward, 
Government is always behind the curve on technology. We'll 
never keep up with the changes that are brought technology-
wise. But it's incumbent upon us to try.
    And I think this is a very valid effort, especially because 
it respects individual laws of each State and helps facilitate 
these transactions and doesn't violate the second amendment. So 
I think this is a well thought out piece of legislation.
    And really, the people that are, you know, they're opposed 
to gun rights still shouldn't object to this because it doesn't 
expand any rights. It simply--it simply facilitates technology 
use.
    Mr. Coble. I thank you. I thank the three of you for being 
with us.
    Dr. Gingrey. Mr. Chairman, if I can just have a little add-
on to that? I think, really, for the very same reasons that 
1415 is a good bill--Mrs. McCarthy's bill--it's the same thing 
as what she said. The technology is there to get this 
information, and it would be foolish not to do it.
    Mr. Coble. I thank you.
    The gentleman from Virginia?
    Mr. Scott. Thank you.
    Dr. Gingrey, you went a long way in saying how this is just 
an extension of the present law for rifles. Is that right?
    Dr. Gingrey. Yes.
    Mr. Scott. Now one of the things that we're dealing with is 
crime. Isn't it more likely that a crime will be committed with 
a handgun than a rifle, and isn't the difference in treatment, 
therefore, justified?
    Dr. Gingrey. Well, in response to the Ranking Member, Mr. 
Scott, I think you're absolutely right. I think that it is more 
probable that a crime would be committed with a handgun than a 
long gun for fairly obvious reasons. And again, I think this is 
the thinking that existed back in 1968 in the Gun Control Act 
in regard to having a difference the way you would restrict a 
sale of a long gun versus a handgun.
    But as we've been saying, both myself and Representative 
McCarthy, things have changed so much in regard to the ability 
to get this information and to get it in a timely fashion. And 
I think that we certainly are still concerned with crime and 
handguns. But I think this--the safeguards are there. The 
technology is there, and I think we need to bring them into----
    Mr. Scott. But the point I was making is that a difference 
in approach is not unreasonable. If you have a licensee in one 
State trying to apply rules and regulations of another State, 
is there anything--as a condition of getting the license, is 
there anything that a Virginia licensee is required to know 
about the laws of other States?
    Dr. Gingrey. Mr. Scott, as far as I know, my understanding, 
of course, is the license of a firearm dealer is both--
primarily a Federal license. And someone, let's say a licensed 
dealer in Georgia that's having a gun show in Virginia. And he 
or she has that Blue Book there in front of them, which is 
updated, I guess, on an annual basis.
    Mr. Scott. Is there anything in terms of him getting a 
license in Georgia that would require him to know what Virginia 
laws are?
    Dr. Gingrey. I'm not sure of the answer to that question, 
Mr. Scott.
    Mr. Scott. Well----
    Dr. Gingrey. But I know that they have the book that lists 
the requirements of gun purchases in every State in the union, 
and that's the so-called Blue Book, FF----
    Mr. Scott. Somebody in Virginia--somebody in Georgia might 
not know about Virginia's ``one gun a month'' law. Is that 
right?
    Dr. Gingrey. Well, that's possible. This Member certainly 
does know about Virginia's ``one gun a month law,'' and the no 
guns in Massachusetts or in the city of Washington, D.C. But--
--
    Mr. Scott. Well, do some States have waiting periods and 
others not have waiting periods?
    Dr. Gingrey. It--I think that is true, Representative 
Scott. They do. Georgia, of course, now has the instant 
background check system. They used to have a waiting period.
    But again, those States that would have requirements like 
that, a waiting period of several days or a one gun a month or 
a no gun under any circumstances, no handgun, those laws would 
absolutely have to be adhered to. And the most stringent would 
trump the least stringent.
    Mr. Scott. The problem, though, is that the licensee may 
not be familiar with the laws, and that would be the problem 
we're getting into. Would there be some crimes that would 
disqualify you for getting a firearm in one State would not 
disqualify you in another State?
    Dr. Gingrey. And I'm glad you ask that question, 
Representative Scott, because that is true. There are. I mean, 
as an example, in Georgia, if you have been charged with 
spousal abuse, as an example, you are not eligible to purchase 
a handgun. You would fail the instant background check, 
according to Georgia law.
    And of course, prior to having this system, this NICS 
system, someone that maybe had three charges of spousal abuse 
in the State of New York could come to the State of Georgia and 
with a new wife or, you know, as a divorcee and purchase a 
handgun, and that record would not be available until we have 
this----
    Mr. Scott. I think that gets us to Mrs. McCarthy's bill. 
Just how far behind are some of these States?
    Mrs. McCarthy. Well, some States, like I said, have come up 
to, you know, 75 percent. A lot of the States have come nowhere 
near it.
    And I think the perfect example is when you're talking 
about interstate, and I think that's where, you know, my bill 
would certainly enhance the safety of the background checks 
being done. We want to look back, you know, 10 years. And then 
after 5 years, there would be a lookout to see how far we could 
go back.
    Right now, most of the States are nowhere near 90 percent, 
nowhere near it. And most of them do not have the information 
that is needed, which is the criteria of the 9 reasons why 
someone shouldn't be able to buy a gun.
    Mr. Scott. Ninety percent is somewhat of a modest goal 
because that means 1 out of 10 records would be missed.
    Mrs. McCarthy. Well, when we passed the bill back in 2002, 
we worked through this Committee. And basically, they felt that 
going higher than 90 percent would not be realistic. I'm 
certainly more than willing to work with the Committee if they 
would like to raise it higher.
    Mr. Scott. Well, thank you.
    And Mr. Chairman, I think your bill would go a long way 
into giving the States the resources to get it even higher, and 
I appreciate your legislation.
    Thank you, Mr. Chairman.
    Mr. Coble. I thank you, Mr. Scott.
    And I ask the witnesses again if you will suspend, and I 
apologize to all of you for the irregular procedure. But once 
we have a reporting quorum here, we need to strike while the 
iron is hot.
    [Recess.]
    Mr. Coble. Now we will return to our panel, and I recognize 
the distinguished gentleman from Florida, Mr. Feeney. I think--
is he still here? Mr. Feeney is gone.
    Mr. Miller, I think, was the next one in attendance. Mr. 
Miller, the gentleman from Florida? Mr. Miller, do you want to 
make a comment on this? Mr. Keller. I'm sorry. I stand 
corrected.
    Mr. Keller. No questions.
    Mr. Coble. The distinguished gentleman from Maryland (sic), 
the Ranking Member of the full Committee, Mr. Conyers?
    Mr. Conyers. Thank you, Mr. Chairman.
    This gun problem is a serious one. I ask unanimous consent 
to have my opening statement included in the hearing.
    Mr. Coble. Without objection.
    [The prepared statement of Mr. Conyers follows in the 
Appendix]
    Mr. Conyers. And I thank you.
    I understand there's delicate negotiations going on. But in 
Detroit, my friends, there is a group called SOSAD, S-O-S-A-D, 
created by an African-American mother who lost two children to 
gunfire. And what I'm concerned about, and it may have been 
mentioned, but I sure want to talk about the tragedy of young 
people being killed in America by weapons, handguns, which 
outnumber every other country--modern country in the world.
    Here we have 19 children killed annually in Great Britain, 
57 in Germany, 109 in France, 153 in Canada, and 5,285 children 
in the United States. Now Clementine Barfield of Save Our Sons 
and Daughters, SOSAD, which tries to deal with violence 
prevention and victims services, is doing a fantastic job. 
She's received numerous awards from both Presidents Clinton and 
Reagan for victim advocacy, and she gets funding from 
corporations and foundations and Government.
    But is there going to come a day in the Judiciary Committee 
where we deal with this? Nobody is talking about gun rights in 
Detroit or limiting hunters or blowing off the second amendment 
to the Constitution. We're worrying about people getting killed 
needlessly, and kids at that.
    And it seems to me that this is where my focus has become 
because I'm the representative of the parents of all these 
young children that are getting needlessly wasted because of 
the proliferation of guns in America.
    Could you help me feel more comfortable when I leave work 
today that we addressed this subject somewhere, somehow? 
Starting with Mrs. McCarthy.
    Mrs. McCarthy. Thank you, Mr. Conyers, and thank you for 
being here.
    As you know that, since I've been here, reducing gun 
violence in this country has been my number-one issue. I have 
been working with a number of States, local to see what we can 
do to make sure that kids don't get their hands on guns, and 
that's one of the biggest problems.
    Right here in the D.C. area, we have a wonderful program 
that I'm trying to bring into the New York area, where we go in 
and educate our young people not only on why they shouldn't, 
you know, join gangs to get their hands on guns, but also what 
guns can actually do. You know, with what they see on TV and 
everything, they think it's a movie until it really happens.
    And the sad part is many of my young people in my district, 
and I live in a suburban district, most--especially young men--
do not expect to live past 17 or 18 years old, which is a 
terrible thing to even think about.
    I spend a lot of time in my schools, talking to these young 
people. They have the power to change, and we have to change 
the culture of that, that violence is acceptable on any level.
    Mr. Conyers. Yes. And I'd like to get you and Clementine 
Barfield together in the Detroit area one of these days.
    Mrs. McCarthy. Well, I plan on doing a lot more traveling, 
State to State.
    Mr. Conyers. Good.
    Mrs. McCarthy. Talking to all these unfortunate victims and 
to work with them.
    Mr. Conyers. Thank you.
    Could I ask Mr. King and Mr. Gingrey to weigh in on this 
subject, please?
    Mr. King. Thank you, Ranking Member Conyers. And I 
appreciate the sensitivity that you bring to this issue.
    You know, it occurs to me that my wife, living here in 
Washington, D.C., lives in a higher risk environment as a 
civilian here in Washington, D.C., than a civilian does in 
Iraq. In that the violent fatalities per 100,000 in Iraq are 
27.51. The violent fatalities in Washington, D.C., are 45.9 per 
100,000 residents.
    And Detroit happens to be 41.8 violent fatalities per 
100,000 residents. So it's significantly more dangerous to be 
in either Washington, D.C., or Detroit than it is to live in 
Iraq. But----
    Mr. Conyers. But Brother King, there are no suicide bombers 
in D.C.
    Mr. King. This--this takes into account the suicide bombers 
in Iraq of the death of civilians. And also--and my point, 
though, is we have very strict gun laws here in Washington, 
D.C., and yet a very high fatality rate.
    Mr. Conyers. But you know what the deal is. They're 
bringing them in from everywhere else. I mean, the freeway is 
loaded with people bringing in truckloads of guns into D.C., 
even though it's against the law to purchase them here.
    Could I ask for an additional minute?
    Mr. Coble. Without objection.
    Mr. Conyers. Thank you. This is a very good interchange, 
and I'm so happy to have you participating in it.
    Mr. Gingrey?
    Dr. Gingrey. Well, let me just say to the distinguished 
Ranking Member of the Committee, the whole Committee, I 
appreciate exactly what he's saying. And to be here with Mrs. 
McCarthy, and I understand the personal tragedy that she has 
gone through, and I know that the distinguished Ranking Member 
is a strong proponent of the second amendment and gun owners 
rights.
    And I think really a lot of it, Mr. Conyers, is the 
violence that our society is exposed to. It's pretty sad, 
really, when you--when you look at what's on television or in 
the movies, what Hollywood is producing or, indeed, on the 
Internet. Kids go to these video arcades, and it's about 
blowing up and killing everybody.
    Mr. Conyers. It's cultural, isn't it?
    Dr. Gingrey. It's a cultural problem. It really is, Mr. 
Conyers. You're right on target, and I don't think it's our 
laws. I think our laws are good.
    And as Mr. King pointed out, you know, a lot of these 
crimes with handguns are theft situations. They're not guns 
that are purchased with instant background checks.
    Mr. Conyers. Do you think that the National Rifle 
Association would join in a discussion like this and agree with 
us in principle?
    Dr. Gingrey. Indeed, I do. I mean, I've had many 
conversations with them, as I'm sure you have, too. I know 
you've worked closely with them, and I think they would join 
with us in being concerned about the level of violence in this 
society.
    Mr. Conyers. Well, I haven't talked to anybody there 
recently. But you know, we all have to come together. We're 
coming together on the Voting Rights Act extension, and this is 
another very sensitive subject that I think the more dialogue 
that we could have, Chairman Coble, the better off we'll be 
toward some real solutions.
    And I thank the witnesses for their contributions.
    Mr. Coble. I agree. And I say to the distinguished Ranking 
Member, Mr. Conyers, it astounded me when you gave those 
comparative figures of our fatalities here as compared to Great 
Britain, for example, Canada.
    I knew we were ahead, but I had no idea that it was that 
decisive. And I thank you for sharing that with us.
    The distinguished gentlelady from California, Ms. Waters?
    Ms. Waters. Mr. Chairman and Members, unfortunately, 
because we are public policymakers that are elected to have to 
deal with all of the subject matter, we have to continue to 
deal with the concerns of districts because of the use of 
firearms and the violence and the deaths, et cetera, et cetera, 
et cetera.
    And I'm always surprised to see that there is any attempt 
to make it easier for gun sales, easier for people who are 
selling guns not to have to come under close scrutiny. I 
welcome a tough ATF. I welcome the idea that they go to gun 
shows, and they find out whether or not people are from out of 
State, whether or not people are violating the law. And I want 
them to have a presence and to let people know that we don't 
take lightly violating any laws in any shape, form, or fashion 
as it relates to gun sales.
    Now what worries me about this bill is that it seems that 
even though it appears that there are a few things that may be 
good, what is this definition of ``willfully?'' This section 
clarifies the definition of ``willfully'' when establishing the 
intent for a violation.
    The intent standard as applied to licenses would reflect 
the fact that licenses are provided with extensive education 
and notice of all legal and regulatory obligations. Thus, a 
violation of a known legal obligation would require ATF to 
establish that the licensee was aware of the obligation and 
intentionally or purposely violated such obligation.
    The standard here is ignorance is no excuse. So why are we 
trying to--why are we trying to change that and err on the side 
of the gun seller? Don't we want ATF to do its job? Why are we 
setting up higher standards and developing more difficult 
criteria for them to deal with people who are violating the 
law? That bothers me.
    And then I see in section 7 limitations on the use of 
firearms purchasing information. Now I am about privacy, and we 
work very hard around here to protect privacy. But some of you 
were very adamant I think in the PATRIOT Act and some other 
things we've done in fighting terrorism that we are able to 
share information, so as to fight terrorism and to make it 
easier to apprehend people who may be involved in potential 
acts of terrorism. But here, you reverse it.
    And now we want to--we want to basically shut down the 
ability of ATF to share information that they gather about 
these individuals who are involved in gun sales. And there are 
a few other things. But let's just deal with those two.
    And if I may ask both of our representatives, Mr. Gingrey 
and Mr. King, to respond to my concerns?
    Dr. Gingrey. Ms. Waters, thank you very much for your 
concerns. And absolutely, I agree with you. We do not want to 
make it more difficult for ATF to go after Federal licensed gun 
dealers who are not abiding by the requirements of their 
license. And in fact, that would be applicable even if the 
Firearms Modernization Act was not in existence, 1384, because 
we would want ATM--ATF to go after them within the States where 
they're--where they're currently doing business.
    But you know, you referenced the PATRIOT Act and connecting 
the dots and that sort of thing, and I remember so clearly the 
911 Commission report talking about the stovepipe existence of 
our intelligence community. And really, in the 1968 Gun Control 
Act, you literally had 50 different stovepipes.
    And so, the fact now that we have a national database, 
NICS, within the Federal Bureau of Investigation, and all of 
the States feed their information to Georgia. In Georgia, it's 
called the GBI. So I think that's good that we have done that.
    And with this system, I feel that it's just clearly this 
bill, 1384, Firearms Commerce Modernization Act, doesn't change 
any existing law. It just allows us to do some things that 
because of technology and computer and ability, that's bringing 
it into the 21st century.
    Ms. Waters. Mr. King?
    Mr. King. Yes, thank you, Ms. Waters.
    Ms. Waters. Excuse me?
    Mr. Coble. Without objection.
    Ms. Waters. Thank you very much.
    Mr. Coble. You are recognized for 1 additional minute.
    Mr. King. If I could just reference a clarification with 
regard to Mr. Gingrey's. As far as not changing any existing 
law, I think it doesn't change existing responsibilities and 
doesn't interfere with any State laws or change any State laws 
or preempt any State laws. But it does seek to expedite the 
process by using modern technology.
    And I think you lost me a little bit when you used the 
language about ``willfully violate.'' I have the bill in front 
of me. Could you point out where that language is that would 
be--would be lowering the enforcement ability by adding the 
word ``willfully'' in the bill?
    Ms. Waters. Yes, I will. I beg your pardon. Oh, okay. It's 
in another bill.
    Mr. King. I'm sorry. That would be why I didn't pick up on 
it then.
    Ms. Waters. Thank you. Thank you. Thank you very much for 
bringing that to my attention.
    Mr. King. Thank you.
    Ms. Waters. Thank you. I yield back.
    Mr. Coble. I thank the gentlelady.
    And I, again, thank the witnesses and those in the hearing 
room who stayed with us. And I apologize to the witnesses for 
having to make you all jump through hoops time and again. But 
when you report bills out, you know how that goes with the 
reporting quorum.
    We appreciate very much your contribution to our three 
Members. In order to ensure a full record and adequate 
consideration of this important issue, the record will be left 
open for additional submissions for 7 days. Also any written 
question from any Member who wants to submit questions to the 
witnesses should be submitted within that same 7-day timeframe.
    This concludes the legislative hearing on H.R. 1384, the 
``Firearm Commerce Modernization Act,'' and H.R. 1415, the 
``NICS Improvement Act.'' Thank you for your cooperation.
    And the Subcommittee stands adjourned.
    [Whereupon, at 11:05 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

prepared statement of the honorable john conyers, jr., a representative 
 in congress from the state of michigan and ranking member, commmittee 
                            on the judiciary
    The legislative proposals under consideration today are as 
different as day and night.
    The first bill, HR 1415, introduced by Ms. McCarthy and which I am 
a cosponsor of seeks to make it harder for felons and domestic violence 
offenders to legally purchase firearms from a licensed gun dealer. The 
second bill, HR 1384, which was introduced by Mr. Gingrey aspires to 
make it much easier.
    I have several concerns with the latter proposal. First and 
foremost, it proposes to overturn a longstanding prohibition in our 
current system of gun laws which restricts the ability of an individual 
to travel across state lines to purchase handguns.
    Under current law, individuals are required to purchase handguns in 
their home state as a means of protecting state and local law 
enforcement officials. In addition, such policies were enacted as a way 
of discouraging residents of one state from attempting to travel across 
state lines to a more lenient state jurisdiction in order to evade more 
stringent gun law protections in their home state. Unfortunately, in 
one fell swoop this bill threatens to eliminate both sets of 
protections.
    Second, the bill unwisely proposes to allow licensed firearms 
dealers to travel across state lines in order to distribute firearms at 
local gun shows and other venues. Remarkably, this new change comes at 
a time when all of the available research clearly indicates that gun 
shows continue to pose a significant problem for law enforcement.
    Gun shows are the second leading source of firearms recovered in 
illegal gun trafficking investigations conducted by the ATF. In fact, 
in September 2003, the St. Louis Post-Dispatch reported that ATF agents 
seized 572 firearms from five unlicensed sellers who were exploiting 
the gun show loophole in ways that threaten the safety of American 
citizens.
    We also know that in at least two cases in the past terrorists have 
targeted gun shows in order to purchase firearms. The first case 
involved Ali Boumelhem, a known member of the terrorist group 
Hezbollah. Mr. Boumelhem was convicted on September 10, 2001 by a 
federal court in Detroit on seven counts of weapons charges for 
smuggling shotguns, ammunition, flash suppressors, and assault weapons 
parts to Lebanon.
    During the course of their investigation, FBI agents followed 
Boumelhem to at least three Michigan gun shows in October 2000. And, 
according to the Associated Press, ``[The] agents said they watched 
[him]. . .buy gun parts and ammunition for shipment overseas.''
    The second case involved Muhammad Asrar, a Pakistani national with 
suspected al-Qaeda ties. Asrar admitted to authorities that he had 
bought and sold a variety of guns at Texas gun shows over the previous 
7 years, including a copy of a Sten submachine gun, a Ruger Mini-14 
rifle, two handguns, and a hunting rifle.
    By working together we can prevent the 30,000 or so firearm- 
related deaths that occur annually, but only if we choose to enact 
commonsense proposals that truly make it harder for felons to gain 
access to dangerous firearms. One bill, HR 1415, does just this. The 
other I'm afraid does not.

                              ----------                              

       prepared statement of the honorable shelia jackson lee, a 
           representative in congress from the state of texas
    I thank the Chairman and Ranking Member. I am also happy to welcome 
three of our most distinguished colleagues as witnesses. Mr. Gingrey, 
Mrs. McCarthy, and Mr. King, I am happy you are here and I look forward 
to hearing your testimony.
    This hearing has been convened to examine the need to update and 
modify existing law regarding the interstate sale of firearms; and the 
need to assist States to ensure that they provide complete, accurate 
and updated data to the National Instant Criminal Background Check 
System (NICS).
    As I understand it, H.R. 1384, the bill before the subcommittee 
sponsored by Mr. Gingrey and Mr. King, does three things:

        1.  It would make it legal for a licensed dealer to sell a 
        handgun to a resident of another state, as long as they do the 
        sale in person and obey the laws of both states, as well as 
        federal law.

        2.  It would allow dealers to do business at out-of-state gun 
        shows.

        3.  It would allow dealers to transfer firearms directly to 
        each other without having to use a shipper.

    I must say Mr. Chairman that I was unaware that federal gun 
trafficking laws were antiquated in urgent need of revision. It is not 
immediately apparent to me why a buyer needs to travel out of state to 
buy a handgun. Or why a gun dealer in Texas needs to travel to Maine to 
sell firearms at a gun show. I will also be interested to learn why it 
is no longer advantageous to require dealers to use a shipper when 
transferring firearms and why law enforcement can do without the 
documentary record such transactions generate.
    I am particularly interested in the witnesses' response to the 
concerns raised by some that if enacted, the effect of H.R. 1384 will 
be to make it easier to become a gun trafficker or that it will result 
in local gun shows being transformed into huge, national munitions 
bazaars.
    Thank you for convening this hearing Mr. Chairman and welcome to 
the witnesses.
    I yield back the remainder of my time.

                              ----------                              

letter from the brady center for gun violence to the honorable f. james 
sensenbrenner, jr., chairman of the committee on the judiciary and the 
honorable john conyers, jr., ranking member, committee on the judiciary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
